     SERVICES
     SfJI,V1CES




(:       ~                           HEALTHI'<&HUMAN
                       DEPARTMENT OF HEALTH     HUN SERVICES
                                                     SERVICES                                                    Office of Inspector General
                                                                                                                 Office
  ,~~~::
   ~~
(" ;ø DEPARTMENT OF

                                                                                                                 Washington,
                                                                                                                 Washington, D.C.
                                                                                                                             D.C. 20201
                                                                                                                                  20201





                                                          FEB -4 2009

                                                          FEB -4  2009

                  TO:              Margot
                                   Margot Bean



                                           L~
                                   Commissioner, Office
                                   Commissioner,  Offce of
                                                         ofChild
                                                            Child Support
                                                                  Support Enforcement
                                   Administration for Children and Families


                  FROM:            1 seph
                                         t:~
                                          E. Vengnn
                                     seph E. Vengrin
                                   Deputy Inspector General for Audit Services


                  SUBJECT:         Review
                                   Review of       distributable Child Support Collections in Tennessee From
                                             of Undistributable
                                                Un

                                   October 1,1998, Through December
                                   October                                 31,2007 (A-04-08-03521)
                                                                December 31,2007


                  Attached is an advance copy of        of our final report on undistributable child support collections in
                  Tennessee from
                  Tennessee         from October
                                            October 1,
                                                    1, 1998,
                                                       1998, through
                                                              through December
                                                                       December31,31,2007.
                                                                                      2007. We
                                                                                            We will
                                                                                                 wil issue
                                                                                                      issue this
                                                                                                             this report
                                                                                                                  report to the
                  Tennessee         Department
                  Tennessee Department of 
          Human Services (the State agency) within 5 business days.
                                                 of Hurnan

                  Our objective was to determine whether the State agency appropriately recognized and reported
                  program  income from
                  program income    from undistributable child support collections
                                                                       collections and
                                                                                   and interest
                                                                                        interestearned
                                                                                                 eared on child
                  support collections.

                  From October 1, 1998, through December 31, 2007, the State agency recognized and reported
                  $907,012 in program
                                program income from
                                                 from undistributable
                                                       undistributable child
                                                                       child support
                                                                              support collections.
                                                                                       collections. However,
                                                                                                    However, the
                                                                                                             the State
                                                                                                                 State
                  agency did not recognize and report as program income $8,739,762 ($5,768,243 Federal Federal share)
                                                                                                               share)
                  in undistributable child support collections that met the State's
                                                                             State's definition
                                                                                     definitionof
                                                                                                ofabandoned
                                                                                                   abandonedproperty.
                                                                                                              property.
                  In addition, the State agency reported incorrect amounts for undistributed collections on its
                  quarterly report
                            report of
                                   of collections (Form OCSE-34A) for December
                                                                          December 31,2007.

                  The State agency did not recognize and report program income for undistributable child support
                  collections primarily because it had not developed and implemented adequate policies and
                  procedures to comply with State and Federal requirements for treatment of     of undistributable
                  collections.
                  collections. The
                               The State
                                     State agency's
                                           agency'squarterly
                                                      quarterlyreport
                                                                 reportwas
                                                                       wasnot
                                                                            notaccurate
                                                                                accuratebecause
                                                                                         becausethe
                                                                                                  theagency
                                                                                                      agencyhad
                                                                                                              had not
                                                                                                                  not
                  (1) adjusted its recordkeeping and support documentation to account for ACF's ACF's recent
                                                                                                        recent
                  modifications to the Form OCSE-34A or (2)     (2) properly accounted for child support
                                                                                                 support payments
                                                                                                          payments
                  collected on behalf
                               behalf of
                                       of children  in the State's Foster Care program.
                                                           State's Foster Care program.

                  The State agency appropriately recognized and reported program income for
                                                                                        for interest
                                                                                            interest earned
                                                                                                     earned on
                  child support collections.
Page 2 – Margot Bean


We recommend that the State agency:

   •   transfer to the State treasurer and report as program income undistributable child support
       collections totaling $8,739,762 ($5,768,243 Federal share) in accordance with State
       requirements,

   •   ensure future compliance with State laws regarding abandoned property by developing
       and implementing adequate policies and procedures to recognize and report as program
       income child support collections that meet the State’s definition of abandoned property,
       and

   •   correct reporting errors on the next quarterly filing of its Form OCSE-34A and provide
       ACF with documentation supporting the corrections.

In written comments on our draft report, the State agency concurred with our findings and said
that it would implement our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through e-mail at Lori.Pilcher@oig.hhs.gov or
Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750 or
through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-08-03521.


Attachment
                                  DEPARTMENT                 OFSERVICES
                                  DEPARTMENT OF HEALTH AND HUMAN HEALTH Offce AND HUMAN SERVICES                            Office oflnspector     General
                                                                                                                                                    General



(~
,." StlWIC'lS.¿.                                                                                                                    oflnspector

                                                                                                                               Offceof
                                                                                                                             Office    ofAudit
                                                                                                                                            AuditServices
                                                                                                                                                  Services

                                                                                                                                   REGION   iv
                                                                                                                                           IV

,-1
                                                                                                                                    REGION
                                                                                                                     61
                                                                                                                      61Forsyth
                                                                                                                         ForsythStreet,
                                                                                                                                 Street,S.W.,
                                                                                                                                         S.W.,Suite
                                                                                                                                               Suite3T41
                                                                                                                                                     3T41
                                                                                                                          Atlanta,
                                                                                                                           Atlanta,Georgia
                                                                                                                                    Georgia30303
                                                                                                                                             30303
                                                               FEB
                                                                FEB -9  2009
                                                                    -9 2009



              ReportNumber:
              Report Number: A-04-08-03521
                             A-04-08-03521

              Mr. Michael
             Mr.  Michael L.
                           L. Adams
                              Adams
             Assistant Commissioner for
             Assistat   Commissioner       Child Support
                                       for Child  SupportEnforcement
                                                          Enforcement

             TennesseeDepartment
             Tennessee    Deparent of ofHuman
                                        Human Services
                                                 Services
             400  Deaderick  Street, 15th Floor
             400 Deaderick Street, 15th Floor
             Nashvile, Tennessee
             Nashville,  Tennessee 37243-4700
                                     37243-4700


             Dear Mr.
             Dear Mr. Adams:
                      Adams:

             Enclosed        is the U.S. Department of Health
             Enclosed is the U.S. Deparent of 

                                                                                  andServices
                                                                       Health and Human  Human   (HS),Services
                                                                                                       Offce of
   (HHS), Office of Inspector
                                                                                                                                     Inspector
             General (OIG), final report entitled "Review of Undistributable
             General (OIG), fina report entitled "Review of

                                                                                          Un   distrbutable Child  Child Support Collections in
                                                                                                                         Support Collections in
             Tennessee         From October 1, 1998, Through December 31, 2007." We will forward a copy ofthis
             Tennessee From October 1, 1998, Though December 31,2007." We will forward a copy of

                                                                                                                                                ths
             report to
             report     to the
                            the HHS
                                  HHS action
                                           action official
                                                     offcial notednoted on  on the
                                                                                 the following
                                                                                       following page  page for for review
                                                                                                                    review and
                                                                                                                           and any
                                                                                                                               any action
                                                                                                                                   action deemed
                                                                                                                                          deemed
             necessary.
             necessary.

             The HHS
             The  HHS action
                       action official
                                officialwill
                                         willmake
                                              makefinal
                                                    finaldetennination
                                                          determation asas to
                                                                           to actions  taen on
                                                                               actions taken onall
                                                                                                 allmatters
                                                                                                    matters reported.
                                                                                                             reported.
             We request
             We  request that
                          that you
                                yourespond
                                    respondtotothis
                                                ths official
                                                    offcial within  30 days
                                                             within 30 days from
                                                                              fromthe
                                                                                    thedate
                                                                                        dateof
                                                                                             ofthis
                                                                                                ths letter.
                                                                                                    letter. Your
                                                                                                            Your
             response should
             response          present any
                      should present    any comments
                                             comments oror additional
                                                           additional information
                                                                      inormation that
                                                                                    that you
                                                                                         you believe
                                                                                             believe may
                                                                                                      may have
                                                                                                            have aa
             bearng on  the  final determination.
             bearing on the final determination.

             Pursuant to the principles of the
             Pursuant to the priciples of 

                                             theFreedom
                                                  Freedom
                                                        of 
  of Inormation
                                                                 InformationAct,
                                                                             Act, 55U.S.C.
                                                                                     U.S.C. §§552,
                                                                                              552, as
                                                                                                    as amended
                                                                                                       amended by
             Public
             Public Law
                     Law 104-231,
                          104-231, OIG
                                     OIG reports
                                          reports generally
                                                     generally are
                                                                are made
                                                                    made available
                                                                          available to
                                                                                    to the
                                                                                       the public
                                                                                           public to
                                                                                                  to the
                                                                                                     the extent
                                                                                                         extent the
                                                                                                                the
             information  is not subject  to  exemptions     in the Act (45 CFR   par  5). Accordingly,  ths
             information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report   report
             will
             will be
                  be posted
                     posted on
                             on the
                                the Internet
                                    Internet atat http://oig.hhs.gov.
                                                  http://oig.hhs.gov.

             If
             If you
                you have
                    have any
                         any questions
                             questions or
                                       or comments
                                          comments about
                                                   about this
                                                         this report
                                                              report,please
                                                                      pleasedo
                                                                             donot
                                                                               nothesitate
                                                                                   hesitateto
                                                                                            tocall
                                                                                               call me,
                                                                                                    me, or
                                                                                                        or contact
                                                                                                           contact
            John
            John Drake,
                 Drake, Audit
                        AuditManager,
                              Manager,atat (404)
                                           (404) 562-7755
                                                 562-7755ororthough
                                                             throughe-mail
                                                                     e-mailatat John.DrakeC£Ùoig.hhs.gov.

                                                                                John.Drake@oig.hhs.gov.
            Please   refer
            Please refer    to report
                         to report    number
                                   number      A-04-08-03521
                                          A-04-08-03521           in all correspondence. .. .
                                                        in all correspondence.

                                                                     Sincerely,
                                                                     Sincerely,

                                                                   ~~~(ß~
                                                                     Peter
                                                                     PeterJ.J. Barbera
                                                                               Barbera
                                                                     Regional
                                                                     RegionalInspector
                                                                                InspectorGeneral
                                                                                          General
                                                                      for
                                                                       forAudit
                                                                           AuditServices
                                                                                  Services


           Enclosure
           Enclosure
Page 2 – Mr. Michael L. Adams


Direct Reply to HHS Action Official:

Ms. Carlis V. Williams
Regional Administrator, Region IV
Administration for Children and Families
Atlanta Federal Center
61 Forsyth Street SW., Suite 4M60
Atlanta, Georgia 30303-8909
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 




  REVIEW OF UNDISTRIBUTABLE 

  CHILD SUPPORT COLLECTIONS 

      IN TENNESSEE FROM 

   OCTOBER 1, 1998, THROUGH 

      DECEMBER 31, 2007 





                    Daniel R. Levinson

                     Inspector General 


                      February 2009

                      A-04-08-03521

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

The Child Support Enforcement program is a Federal, State, and local partnership established in
1975 under Title IV-D of the Social Security Act to collect child support payments from
noncustodial parents for distribution to custodial parents. Within the U.S. Department of Health
and Human Services, Administration for Children and Families (ACF), the Office of Child
Support Enforcement (OCSE) provides Federal oversight. In Tennessee, the Department of
Human Services (the State agency), Division of Child Support Services, administers the
program.

OCSE requires States to offset Child Support Enforcement program costs by recognizing and
reporting program income from undistributable child support collections and interest earned on
child support collections. OCSE defines undistributable collections as those that are considered
abandoned under State law. Tennessee’s Uniform Disposition of Unclaimed Property Act
defines abandoned property and establishes holding period requirements based on the property
type. Tennessee Code section 66-29-113 requires the State agency to report to the State treasurer
any presumed abandoned property in its possession, and section 66-29-115(a) requires the State
agency to transfer the property to the State treasurer at the time of filing, with exceptions that are
not applicable.

OBJECTIVE

Our objective was to determine whether the State agency appropriately recognized and reported
program income from undistributable child support collections and interest earned on child
support collections.

SUMMARY OF FINDINGS

From October 1, 1998, through December 31, 2007, the State agency recognized and reported
$907,012 in program income from undistributable child support collections. However, the State
agency did not recognize and report as program income $8,739,762 ($5,768,243 Federal share)
in undistributable child support collections that met the State’s definition of abandoned property.
In addition, the State agency reported incorrect amounts for undistributed collections on its
quarterly report of collections (Form OCSE-34A) for December 31, 2007.

The State agency did not recognize and report program income for undistributable child support
collections primarily because it had not developed and implemented adequate policies and
procedures to comply with State and Federal requirements for treatment of undistributable
collections. The State agency’s quarterly report was not accurate because the agency had not
(1) adjusted its recordkeeping and support documentation to account for ACF’s recent
modifications to the Form OCSE-34A or (2) properly accounted for child support payments
collected on behalf of children in the State’s Foster Care program.




                                                  i
The State agency appropriately recognized and reported program income for interest earned on
child support collections.

RECOMMENDATIONS

We recommend that the State agency:

   •   transfer to the State treasurer and report as program income undistributable child support
       collections totaling $8,739,762 ($5,768,243 Federal share) in accordance with State
       requirements,

   •   ensure future compliance with State laws regarding abandoned property by developing
       and implementing adequate policies and procedures to recognize and report as program
       income child support collections that meet the State’s definition of abandoned property,
       and

   •   correct reporting errors on the next quarterly filing of its Form OCSE-34A and provide
       ACF with documentation supporting the corrections.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and said
that it would implement our recommendations. The State agency’s comments are included in
their entirety as the Appendix.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION.........................................................................................................................1

     BACKGROUND ......................................................................................................................1
       Child Support Enforcement Program..................................................................................1
       Tennessee’s Child Support Enforcement Program .............................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................................1
       Objective .............................................................................................................................1
       Scope...................................................................................................................................2
       Methodology .......................................................................................................................2

FINDINGS AND RECOMMENDATIONS ...............................................................................3

     UNDISTRIBUTABLE COLLECTIONS .................................................................................3
       Federal Requirements .........................................................................................................3
       State Requirements .............................................................................................................4
       Child Support Collections Not Recognized as Abandoned and Not Reported
        as Program Income ...........................................................................................................5
       Undistributed Child Support Collections Not Reported Accurately...................................5

     RECOMMENDATIONS..........................................................................................................5

     STATE AGENCY COMMENTS.............................................................................................6

APPENDIX

     STATE AGENCY COMMENTS




                                                                      iii
                                       INTRODUCTION

BACKGROUND

Child Support Enforcement Program

The Child Support Enforcement program is a Federal, State, and local partnership established in
1975 under Title IV-D of the Social Security Act to collect child support payments from
noncustodial parents for distribution to custodial parents. Within the U.S. Department of Health
and Human Services, Administration for Children and Families (ACF), the Office of Child
Support Enforcement (OCSE) provides Federal oversight.

OCSE requires States to offset Child Support Enforcement program costs by recognizing and
reporting program income from undistributable child support collections and interest earned on
child support collections. OCSE defines undistributable collections as those that are considered
abandoned under State law. States are required to report undistributable collections and program
income quarterly on Federal Forms OCSE-34A, “Child Support Enforcement Program Quarterly
Report of Collections,” and OCSE-396A, “Child Support Enforcement Program Financial
Report,” respectively.

Tennessee’s Child Support Enforcement Program

In Tennessee, the Department of Human Services (the State agency), Division of Child Support
Services, administers the program. Tennessee’s program is administered through contracts with
district attorneys, juvenile courts, and private contractors. The State agency contracts with Tier
Technology, Inc. (Tier Technology), to serve as the focal point for the receipt of child support
payments and to help individuals and businesses comply with child support policies and
procedures. Child support payments are recorded in the automated Tennessee Child Support
Enforcement System. The State agency distributes the payments through direct deposit, debit
cards, and State-issued checks.

Undistributable child support collections are subject to Tennessee’s Uniform Disposition of
Unclaimed Property Act (Unclaimed Property Act). All identified but undistributable child
support collections (unclaimed property) held by the State agency that have remained unclaimed
for 1 year should be presumed abandoned and transferred to the State treasurer. All
unidentifiable child support collections (miscellaneous property) held by the State agency that
have remained unclaimed for 5 years should be presumed abandoned and transferred to the State
treasurer.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency appropriately recognized and reported
program income from undistributable child support collections and interest earned on child
support collections.



                                                 1
Scope

We reviewed undistributable child support collections and interest earned on child support
collections for the period October 1, 1998, through December 31, 2007. We limited our review
of the State agency’s internal control structure to those controls specific to recognizing and
reporting undistributable child support collections and interest earned on child support
collections. We also reviewed and evaluated internal controls over receiving and recording child
support collections at Tier Technology.

We performed fieldwork at the State agency and Tier Technology in Nashville, Tennessee, from
April through July 2008.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws and guidance, including OCSE program and
        policy announcements;

   •    interviewed State agency officials to identify the State agency’s policies and procedures
        for recognizing and reporting program income pertaining to undistributable collections
        and interest earned on child support collections;

   •    evaluated policies and procedures for recognizing and reporting program income
        pertaining to undistributable collections and interest earned on child support collections;

   •    reviewed contracts and SAS 70 (Report on the Processing of Transactions by Service
        Organizations) reports, interviewed personnel, and observed operations at Tier
        Technology;

   •    reviewed Forms OCSE-34A and OCSE-396A to identify the undistributable collections
        and program income that the State agency reported for the quarters ended December
        1998 to December 2007;

   •    reviewed undistributable child support collections in State accounts that met the State’s
        definition of abandoned property;

   •    obtained detailed records of undistributable child support collections and analyzed the
        time period of the collections to determine the applicability of the Tennessee abandoned
        property law;

   •    compared the originally filed itemized undistributed collections attachment for Form
        OCSE-34A with supporting detail to identify any reporting discrepancies; and

   •    determined whether the State agency appropriately reported the interest earned on child
        support collections.


                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

From October 1, 1998, through December 31, 2007, the State agency recognized and reported
$907,012 in program income from undistributable child support collections. However, the State
agency did not recognize and report as program income $8,739,762 ($5,768,243 Federal share)
in undistributable child support collections that met the State’s definition of abandoned property.
In addition, the State agency reported incorrect amounts for undistributed collections on its
quarterly report of collections (Form OCSE-34A) for December 31, 2007.

The State agency did not recognize and report program income for undistributable child support
collections primarily because it had not developed and implemented adequate policies and
procedures to comply with State and Federal requirements for treatment of undistributable
collections. The State agency’s quarterly report was not accurate because the agency had not
(1) adjusted its recordkeeping and support documentation to account for ACF’s recent
modifications to the Form OCSE-34A or (2) properly accounted for child support payments
collected on behalf of children in the State’s Foster Care program.

The State agency appropriately recognized and reported program income for interest earned on
child support collections.

UNDISTRIBUTABLE COLLECTIONS

Federal Requirements

The OCSE Policy Interpretation Question (PIQ)-88-7 and OCSE-PIQ-90-02 require States to
offset Child Support Enforcement program costs by recognizing and reporting program income
from undistributable child support collections when the funds are considered abandoned.
OCSE-PIQ-88-7 states:

         If a IV-D . . . collection is truly undistributable, the State may dispose of it
         in accordance with State law. States may, for example, provide that such
         collections must be refunded to the obligor or that they become the property
         of the State if unclaimed after a period of time. In the latter case, if clearly
         identified as IV-D collections, this revenue must be counted as program
         income and be used to reduce IV-D program expenditures, in accordance
         with Federal regulations at 45 CFR 304.50.

OCSE-PIQ-90-02 states: “Every State has statutes and regulations governing the handling of
unclaimed or abandoned property left in its care. OCSE-PIQ-88-7 . . . recognizes this fact and




                                                 3
encourages each State to utilize these individual State procedures to report undistributable or un-
cashed title IV-D collections as title IV-D program income.”

OCSE requires States to report program income for undistributable collections when State law
considers them abandoned. Instructions for line 9a of Form OCSE-34A define undistributable
collections as “the portion of collections reported on Line 9 that, despite numerous attempts, the
State has determined it will be unable to distribute in accordance with the provision of Section
457 of the Social Security Act and unable to return to the non-custodial parent. Under State law,
these amounts are considered to be ‘abandoned property.’ ”

State Requirements

Tennessee’s Unclaimed Property Act (Tennessee Code §§ 66-29-110 and 66-29-112) establishes
requirements for the disposition of two types of abandoned property: unclaimed property, which
is subject to a 1-year holding period, and miscellaneous property, which is subject to a 5-year
holding period.

Section 66-29-102(9) defines property as “tangible personalty located in [Tennessee] and all
intangible personalty.” Section 66-29-102(4) defines a holder as “any person in possession of
property subject to [the Abandoned or Unclaimed Property chapter of the Unclaimed Property
Act] belonging to another . . . .” Section 66-29-102(8) defines a person as “any . . . government
or political subdivision, public corporation, [or] public authority . . . .” The State agency is a
governmental subdivision or public authority under this definition, and the child support
collections held by the State agency fall squarely within the definition of intangible personal
property.

Section 66-29-103 states that, unless otherwise provided in this part or by other Tennessee
statute, intangible property is subject to the custody of the State as unclaimed property if the
conditions described in sections 66-29-110 and 66-29-112 are satisfied. The Tennessee Code is
silent as to the handling of undistributable or unidentifiable child support collections; therefore,
section 66-29-103 applies, and such collections are subject to Tennessee’s abandoned property
laws.

Section 66-29-110 provides that “property held for the owner by any . . . public authority or
agency, or public officer, or a political subdivision, including, but not limited to, the state of
Tennessee or any of its departments or agencies, that has remained unclaimed by the owner for
more than one (1) year is presumed abandoned . . . .” Section 66-29-112 provides that all
miscellaneous property not otherwise covered by this part “that is held or owing in the ordinary
course of the holder’s business and has remained unclaimed by the owner for more than five (5)
years after it became payable or distributable is presumed abandoned.”

Section 66-29-113 requires the State agency to report to the State treasurer any presumed
abandoned property in its possession, and section 66-29-115(a) requires the State agency to
transfer such property to the State treasurer at the time of filing, with exceptions that are not
applicable. Pursuant to the State treasurer’s regulations that implement the Unclaimed Property




                                                  4
Act, under section 1700-2-1-.18, “unidentified remittances” and “miscellaneous outstanding
checks” are considered “miscellaneous property held for another person.”

Child Support Collections Not Recognized as Abandoned and Not Reported as
Program Income

From October 1, 1998, through December 31, 2007, the State agency did not recognize and
report as program income $8,739,762 ($5,768,243 Federal share) in undistributable child support
collections that met the State’s definition of abandoned property, nor did the State agency
transfer those funds to the State treasurer as required by State law. Of the $5,768,243 Federal
share, $5,742,699 was subject to the Unclaimed Property Act’s 1-year holding period, and the
remaining $25,544 was subject to the Unclaimed Property Act’s 5-year holding period.

The State agency did not recognize and report program income for undistributable child support
collections primarily because it did not have adequate policies and procedures to comply with
State and Federal requirements for treatment of undistributable collections. In addition, the State
agency said that it preferred to retain undistributable child support collections beyond the
Unclaimed Property Act’s holding period in hopes of identifying the appropriate payee.

Undistributed Child Support Collections Not Reported Accurately

The State agency’s Form OCSE-34A and its attachment, the “Itemized Undistributed
Collections” (UDC), for the quarter ended December 31, 2007, were inaccurate. On the Form
OCSE-34A, five of the nine lines in sections A and B were incorrect. For example, section A,
line 1, “Balance Remaining Undistributed From Previous Quarter,” was reported as $10,628,588
but should have been reported as $15,967,079, and section B, line 9b, “Net Undistributed
Collections,” was reported as $6,432,235 but should have been reported as $12,685,451.
Nineteen of the twenty lines on the UDC were incorrect.

The quarterly report was inaccurate because the State agency had not (1) adjusted its
recordkeeping to account for ACF’s recent modifications to the Form OCSE-34A or (2) properly
accounted for child support payments that were collected on behalf of children in the State’s
Foster Care program.

During our audit, the State agency was working to correct these reporting errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   transfer to the State treasurer and report as program income undistributable child support
       collections totaling $8,739,762 ($5,768,243 Federal share) in accordance with State
       requirements,

   •   ensure future compliance with State laws regarding abandoned property by developing
       and implementing adequate policies and procedures to recognize and report as program


                                                 5
       income child support collections that meet the State’s definition of abandoned property,
       and

   •   correct reporting errors on the next quarterly filing of its Form OCSE-34A and provide
       ACF with documentation supporting the corrections.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and said
that it would implement our recommendations. The State agency’s comments are included in
their entirety as the Appendix.




                                               6
APPENDIX
APPENDIX
